No.
IN THE

Supreme Court of the United States
Christopher Gary Baylor,
Petitioner,
v.
AYANO ETO,
Respondent.

On Petition For Writ Of Certiorari
To The Minnesota Supreme Court for the Third District
EXPEDITED PETITION FOR WRIT OF
CERTIORARI
CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5, that on the 9th
day of November, 2020, true copies of the Petition for Writ of Certiorari and the Motion
for Expedited Relief were sent via overnight mail to the Clerk of United States
Supreme Court, One First Street, NE., Washington, D.C. 20543, and; to the
Respondent, AYANO ETO, Lot 3055 PO Box 17370, Saint Paul, MN-55117-0370.

On November 23, 2020, the same true and correct copy of the same
Petition for Writ of Certiorari and Motion for Expedited Relief, are resent via
overnight express mail to the Clerk of United States Supreme Court, One
First Street, NE., Washington, D.C. 20543, and that no additional copies of the
same petition that remains unchanged, need not be sent to the Respondent
whose response remains due within 30 days of receipt.

All parties required to be served were served on November 9, 2020.
All parties required to be served have been served this day on
November 23, 2020.
EXECUTED, this 23rd day of November 2020.

I declare under penalty of perjury that the foregoing is true and
correct. 28 U. S. C. ยง1746.

/\

Christopher Gary Baylor
Al Against A Fatherless America
Advocate for the Prevention of
Child Abduction, Abuse & Alienation
491 Baltimore Pike, 105
Springfield, PA 19064
(484) 682-2605
edo_delight@comcast.net

